                               O ffice of th e Ins pe ctor Ge ne ral



K e nne th S. A pfe l

Com m is s ione r of SocialSe curity


Ins pe ctor Ge ne ral



A ccounting for SocialSe curity Be ne fits by th e County of Los A nge l
                                                                       e s , Cal
                                                                               ifornia



Th e attach e d finalre port pre s e nts th e re s ul  ts of our audit of th e ade q uacy of th e
County of Los A nge l       e s ’proce dure s and control   s ove r SocialSe curity be ne fits
re ce ive d and disburs e m e nts m ade on be h al    f of ch il
                                                               dre n in its care

(A-09 -9 6-51002). Th e obje ctive w as to de te rm ine th e ade q uacy of th e control
        s
and w h e th e r inte re s t e arne d on th e ch il
                                                  dre n’ s funds w as b e ing paid to th e
ch il
    dre n. W e al  s o de te rm ine d th e e xte nt of th e County’  s com pliance w ith l aw s and
re gul ations re garding de dicate d accounts for l       arge paym e nts of re troactive
Suppl   e m e ntalSe curity Incom e be ne fits and re troactive re im burs e m e nt for fos te r
care cos ts .

You m ay w is h to com m e nt on any furth e r action tak e n or conte m pl   ate d on our
re com m e ndations . Ifyou ch oos e to offe r com m e nts , ple as e provide th e m w ith in
th e ne xt 60 days . Ifyou w is h to dis cus s th e finalre port, pl e as e cal
                                                                              lm e or h ave
your s taff contact Pam e l
                          a J. Gardine r, Assistant Ins pe ctor Ge ne ralfor Audit, at
(410)9 65-9 700.




                                                     D avid C. W il
                                                                  liam s
                                       O ffice of th e Ins pe ctor Ge ne ral



K e nne th S. A pfe l

Com m is s ione r of SocialSe curity


Ins pe ctor Ge ne ral



A ccounting for SocialSe curity Be ne fits by th e County of Los A nge l
                                                                       e s , Cal
                                                                               ifornia



Th is finalre port is one of th re e is s ue d in re s pons e to a re q ue s t from th e Social
Se curity Adm inis tration (SSA ) th at th e O ffice of th e Ins pe ctor Ge ne ral(O IG)re vie w
ope rations of th e D ivis ion of Ch il    dre n and Fam il  y Se rvice s (D CFS), County of
Los A nge l  e s , California. O ne re port addre s s e d w h e th e r D CFS h ad ade q uate
proce dure s and re ce ive d s ufficie nt ins tructions from SSA to carry out its
re s pons ibilitie s as re pre s e ntative paye e (Re p Paye e ).1 A noth e r re port ve rifie d th at
D CFS h ad ide ntifie d and re porte d to SSA th os e ch il      dre n in its care w h o w e re no
longe r e ntitl e d to SocialSe curity. 2 Th is re port addre s s e s th e ade q uacy of D CFS’
proce dure s and control      s ove r be ne fits re ce ive d and disburs e m e nts m ade on be h al  f
of ch ildre n in its care .

D CFS h ad im pl    e m e nte d ade q uate proce dure s and control     s to account for re ce ipts
and disburs e m e nts of SocialSe curity be ne fits ;h ow e ve r, ch ange s w e re ne e de d to
com pl   y w ith l aw s and re gul  ations . Firs t, th e County inve s te d and e arne d inte re s t
on ch il  dre n’s funds w ith out cre diting th e inte re s t to th e ch ildre n. Th e am ount of
inte re s t e arne d th at s h oul
                                 d h ave be e n cre dite d to th e ch ildre n w as about
$72,000 for th e 12-m onth pe riod Se pte m be r 19 9 6 th rough Augus t 19 9 7.
Se cond, D CFS re ce ive d re im burs e m e nt re troactive l    y for fos te r care cos ts w ith out
com pl   ying w ith th e re q uire m e nt as Re p Paye e to obtain prior auth orization from
SSA . Final     l
                y, D CFS h ad not e s tabl  is h e d de dicate d accounts for ce rtain re troactive
paym e nts .




1
  “ Re vie w of Los A nge l e s County’s Pe rform ance as th e Re pre s e ntative Pay e e for Titl
                                                                                                 e IIand Titl
                                                                                                            e XVI
Ch il
    dre n in Fos te r Care ”(A-09 -9 6-62003)is s ue d on Jul y 9 , 19 9 7.
2
  “Audit of th e County of Los A nge l   e s ’Re vie w to Ide ntify and Re port to SSA Pas t D e ficie ncie s for Titl
                                                                                                                     e II
and Titl
       e XVICh il dre n in Fos te r Care ”(A-09 -9 6-61002)is s ue d on Augus t 11, 19 9 7.
Page 2 - K e nne th S. A pfe l

BACKGROUND

In 19 9 5, D CFS pe rform e d an inte rnalre vie w and re porte d probl        e m s w ith its
proce dure s for ide ntifying and re porting e ve nts th at w oul      d affe ct ch ildre n’s Social
Se curity be ne fits . Subs e q ue ntly, th e D e puty Com m is s ione r of th e form e r O ffice
for Program s , Pol   icy, Eval uation and Com m unications , in a m e m orandum date d
A pril26, 19 9 6, re q ue s te d th at O IG as s e s s th e County’  s re l
                                                                          iabil
                                                                              ity to act as a Re p
Paye e for ch ild be ne ficiarie s . Th is re port addre s s e s th e ade q uacy of th e
accounting proce dure s th at affe ct th e County’         s abil
                                                                ity to act as a Re p Paye e .

Th e County of Los A nge l        e s , w ith ove r 9 m il
                                                         lion re s ide nts , h as a large r popul  ation
th an 42 State s and an annualbudge t of m ore th an $12 bil                 lion. D CFS is
re s pons ible for e s tabl is h ing and m anaging a s y s te m of s e rvice s to e ns ure th at
ch ildre n are s afe from abus e , ne gl      e ct, and e xploitation. O ne s e rvice is to provide
te m porary h ous ing th rough its Fos te r Care program for ch il            dre n w h os e fam ilie s are
unabl  e to provide a s afe h om e e nvironm e nt. Th rough th e program , ch il             dre n are
pl ace d w ith individualfos te r pare nts or in publ       ic or private ins titutions . D CFS
re im burs e s th e fos te r pare nts and th e ins titutions for th e cos ts of th e ch il     dre n’  s
care . D CFS provide s fos te r care s e rvice s to approxim ate l          y 30,000 ch il   dre n, about
1,200 of w h om re ce ive SocialSe curity be ne fits .

Ch il
    dre n in fos te r care m ay re ce ive SocialSe curity be ne fits unde r tw o program s .
Ol d-Age , Survivors and D is abil    ity Ins urance (O A SD I)paym e nts are avail    abl e to
ch il
    dre n if a pare nt is re tire d, de ce as e d, or dis able d. Suppl  e m e ntalSe curity
Incom e (SSI)is avail   abl e to ch il dre n w h o are bl  ind or dis able d and h ave lim ite d
fam ily incom e and re s ource s . In s om e cas e s th e ch il   dre n are e ntitl
                                                                                  e d unde r both
program s s im ul tane ous l y.

D CFS s e rve s as th e Re p Paye e for ch il     dre n in its care and is re s pons ible for us ing
th e be ne fits in th e ch il
                            dre n’s b e s t inte re s ts . Th us , SocialSe curity be ne fits are
us e d to pay for fos te r care provide d to th e ch il      dre n. A s Re p Paye e , D CFS is al so
re s pons ible for cons e rving or inve s ting any uns pe nt funds on be h al       f of th e ch il
                                                                                                  dre n
(20 Code of Fe de ralRe gul      ations [CFR] s e ction 404.2045(a)and 20 CFR s e ction
416.645(a)). Any inte re s t e arne d on th e s e be ne fits b e l     ongs to th e ch ildre n
(Program O pe rations M anualSys te m [PO M S], Part 02, GN 00603.010A .1).

SocialSe curity be ne fits are re ce ive d by th e County via dire ct de pos it to a
com m e rcialbank account w h ich is us e d onl       y for SSA be ne fit paym e nts . D CFS
dow nl  oads inform ation e l e ctronical  ly from th e bank incl  uding SocialSe curity
num be r, type of be ne fit (O A SD Ior SSI), and am ount of paym e nt. D CFS m aintains
individualaccounts in an autom ate d s ubs idiary l       e dge r for e ach of th e ch il
                                                                                        dre n.
Th e l              e d “Ch il
      e dge r is titl        d W el fare Trus t Le dge r Sys te m ”(CW T). Al     lbe ne fits and
e xpe nditure s m ade on be h al  f of e ach ch il d are re corde d in th e s e accounts . Th e
funds are autom atical    ly trans fe rre d into th e County’  s G e n e ralFund for inve s tm e nt
Page 3 - K e nne th S. A pfe l

purpos e s . Th e D e partm e nt of th e A uditor Control
                                                        le r, a de partm e nt s e parate and
dis tinct from D CFS, re cords re ce ipts and disburs e m e nts of funds for th e Ge ne ral
Fund. Th e D e partm e nt of th e Tre as ure r and Tax Col  le ctor, anoth e r s e parate and
dis tinct de partm e nt, h as cus tody of th e funds and m ak e s al ldisburs e m e nts .

Th e ch il dre n’ s funds are disburs e d for fos te r care paym e nts and to pay for s pe cial
ne e ds of th e ch il dre n. Fos te r care provide rs s ubm it vouch e rs to D CFS indicating
th at s e rvice s w e re provide d to th e ch il
                                               dre n. Th e vouch e rs are s e nt to th e
D e partm e nt of th e Tre as ure r and Tax Col   le ctor w h e re th e y are us e d as th e bas is
for m ak ing th e fos te r care paym e nts . Afte r th e fos te r care paym e nts are m ade , a
com pute r tape containing data about th e paym e nts is provide d to D CFS. Th e tape
is us e d to re cord th e fos te r care paym e nts to th e ch il  dre n’ s accounts .

Th e cas e w ork e rs initiate re q ue s ts for paym e nts for s pe cialne e ds of th e ch ildre n.
Th e re q ue s ts are proce s s e d th rough th e Finance D ivis ion of D CFS w h ich
de te rm ine s th e availability of funds b e fore approving th e re q ue s ts . If th e re q ue s ts
are approve d, th e paym e nt is re corde d to th e ch il   dre n’s accounts and th e re q ue s ts
are s e nt to th e D e partm e nt of th e Tre as ure r and Tax Col   l
                                                                     e ctor for paym e nt.

Pe riodical  l
             y, D CFS re ce ive s paym e nts for re troactive SSIbe ne fits . Typical      l
                                                                                           y, th e
proce s s ing of SSIappl                                                       ay re s ul
                           ications re q uire s s e ve ralm onth s . Th is d e l        ts in
re troactive be ne fits w h ich SSA pay s in a l    um p-s um toge th e r w ith th e curre nt
                             ay, D CFS pay s for fos te r care e xpe ns e s for th e ch il
be ne fits . D uring th e de l                                                              dre n.
Th e s e cos ts b e com e de bts of th e ch ildre n, m ak ing D CFS a cre ditor. SSA pol      icy
pe rm its Re p Paye e s to be re im burs e d for th e s e cos ts provide d th at prior
auth orization is obtaine d (PO M S, Part 02, GN 00602.030B).

D CFS us e s th e paym e nts for re troactive be ne fits to pay fos te r care cos ts for th e
curre nt pe riod and th e n re im burs e s its e l
                                                 f for th e cos ts of fos te r care paid w h il
                                                                                              e th e
SSIappl  ications w e re be ing proce s s e d. Re im burs e m e nts are accom pl     is h e d
autom atical  l
              y th rough th e CW T.

D uring th e cours e of our audit, th e Pe rs onalRe s pons ibil       ity and W ork O pportunity
Re concil   iation A ct of 19 9 6 (Publ   ic Law 104-19 3)w as e nacte d. Th is l         e gis l
                                                                                                ation
am e nde d th e SocialSe curity Act (Act) to re q uire s pe cialh andl          ing of large
paym e nts of re troactive be ne fits . Spe cifical      l
                                                         y, th e l aw re q uire s th at SSIpaym e nts
w h ich e xce e d s ix tim e s th e m onth l y Fe de ralbe ne fit rate pl  us any State
s uppl  e m e ntation be de pos ite d in de dicate d accounts in a financialins titution
(s e ction 1631(a)of th e A ct). Th e A ct and im pl         e m e nting re gul ations l im it th e us e
of th e s e paym e nts to a l  is t of e xpe ns e s re l
                                                       ate d to th e ch ildre n’ s im pairm e nt(s )
(20 CFR, s e ction 416.640e ).
Page 4 - K e nne th S. A pfe l

SCO PE

O ur audit w as conducte d in accordance w ith ge ne ral        ly acce pte d gove rnm e nt
auditing s tandards . Th e obje ctive w as th re e fol  d. Firs t, w e de te rm ine d w h e th e r
D CFS im pl  e m e nte d ade q uate proce dure s and control    s to account for Social
Se curity be ne fits re ce ive d and disburs e m e nts m ade on be h al  f of ch ildre n in its
care . Se cond, w e de te rm ine d if D CFS cre dite d th e ch il  dre n w ith inte re s t e arne d
on th e ir uns pe nt funds . Th ird, w e de te rm ine d th e e xte nt of D CFS’com pl      iance
w ith law s and re gul   ations re garding de dicate d accounts for l    arge paym e nts of
re troactive SSIbe ne fits and re troactive re im burs e m e nt for fos te r care cos ts .

W e re vie w e d DCFS’ope rating proce dure s re l       ate d to re cording re ce ipts and
disburs ing funds for ch il    dre n in fos te r care w h o re ce ive d SocialSe curity be ne fits .
W e te s te d th e proce dure s by tracing s e ve ralbe ne fit paym e nts from SSA ’      s re cords
to th e County’     s re cords for th e pe riod January 19 9 5 th rough June 19 9 6. W e al         so
trace d s e le cte d fos te r care and oth e r paym e nts th rough th e County’      s disburs e m e nt
proce s s for th e s am e pe riod. W e l    im ite d our re vie w of inte rnalcontrol  s to th os e
ne ce s s ary to as s ure ours e lve s th at re ce ipts and disburs e m e nts w e re accurate l y
re corde d.

W e conducte d our audit during th e pe riod Augus t 19 9 6 th rough O ctobe r 19 9 7.
W e h eld dis cus s ions w ith official   s from th e County’
   s D e partm e nt of th e A uditor
Control  l
         e r, th e D e partm e nt of th e Tre as ure r and Tax Col      le ctor, and D CFS. W e al
   so
s pok e w ith re gionalSSA official      s in San Francis co, Cal     ifornia, and s taff at th e fie l
                                                                                                      d
office in Pas ade na, Cal    ifornia. In addition, w e obtaine d l       e galopinions from th e
O ffice of th e Couns e lto th e Ins pe ctor Ge ne ralconce rning th e paym e nt of inte re s t
on th e ch ildre n’ s funds and th e re q uire m e nt to e s tabl  is h de dicate d accounts for
large re troactive paym e nts . O ur cal      cul ation of inte re s t e arne d on th e ch ildre n’
                                                                                                  s
funds w as bas e d on th e e nding m onth l       y balance s for th e ch il  dre n’s trus t funds and
on actualm onth l    y inte re s t rate s e arne d by th e County’    s G e n e ralFund for th e
pe riod Se pte m be r 19 9 6 th rough Augus t 19 9 7.

RESULTS O F AUDIT

O ur re vie w dis cl os e d th at D CFS h ad im pl   e m e nte d ade q uate proce dure s and
control  s ove r th e re cording of SocialSe curity paym e nts re ce ive d and
disburs e m e nts m ade on be h al    f of ch il dre n in its care . H ow e ve r, w e found th at
D CFS w as not com pl      ying w ith l   aw s and re gul  ations re late d to paying inte re s t on
th e ch il
         dre n’ s funds . In addition, D CFS did not obtain re q uire d auth orization
be fore re ce iving re troactive re im burs e m e nt as Re p Paye e for fos te r care cos ts .
Final l
      y, D CFS h ad not e s tabl    is h e d de dicate d accounts for ce rtain re troactive
paym e nts .
Page 5 - K e nne th S. A pfe l

Inte re s t Earne d on Ch il
                           dre n’
                                s Funds

D CFS did not cre dit th e ch il     dre n w ith inte re s t th at w as e arne d on th e ir Social
Se curity funds . D CFS official       s s tate d th e y w e re unaw are of inve s tm e nt
re q uire m e nts . None th e l
                              e s s , th e County did inve s t and e arn inte re s t on th e s e
funds . Since th e funds b e l     onge d to th e ch il   dre n, th e inte re s t al
                                                                                   s o be l
                                                                                          onge d to
th e m and s h oul  d h ave be e n adde d to th e ir accounts .

Th e County h e ld a s ignificant am ount of m one y in trus t for ch il   dre n re ce iving
SocialSe curity be ne fits . Th e m onth ly bal ance during th e pe riod Se pte m be r 19 9 6
th rough Augus t 19 9 7 ave rage d approxim ate l    y $1.6 m il  l
                                                                  ion. D uring th is 12-m onth
pe riod, w e calculate d th at th e am ount of inte re s t e arne d on th e s e funds w as about
$72,000. W e cal    cul ate d th is am ount by sum m ing m onth l    y inte re s t bas e d on th e
actualm onth l y bal ance s and e arne d inte re s t rate s re porte d by th e County.

D e dicate d Accounts

D CFS w as not tim e l    y in e s tabl   is h ing de dicate d accounts for l   arge re troactive
paym e nts e xce e ding s ix tim e s th e m onth l       y SSI/SocialSe curity paym e nt rate as
re q uire d by th e A ct. In a l    e tte r to SSA date d O ctobe r 23, 19 9 7, D CFS official        s
s tate d th e y be l
                   ie ve d th at th e ir accounting s y s te m com pl     ie d w ith th e inte nt of th e
ne w l  e gis l
              ation. Th e l  e tte r re as one d th at th e l       ation w as dire cte d tow ard
                                                              e gis l
individualRe p Paye e s rath e r th an ins titutions . Ital         s o argue d th at D CFS’
accounting s y s te m provide d as m uch prote ction agains t th e m is us e of funds as
w oul  d be provide d unde r th e l      aw by a financialins titution.

Al  th ough w e found th at th e control     s ove r th e re ce ipt and disburs e m e nt of
ch il dre n’ s funds w e re ade q uate , th e A ct re q uire s th at l
                                                                     arge paym e nts s ubje ct to
s e ction 1631(a)of th e A ct be m ade to de dicate d accounts in a financialins titution.
Al  s o, th e A ct doe s not e xe m pt gove rnm e nt e ntitie s from th is re q uire m e nt.

A s a re s ult of m is inte rpre ting th e l
                                           aw , D CFS us e d norm alcas h proce s s ing
proce dure s for 15 paym e nts re ce ive d during th e pe riod Augus t 22, 19 9 6, th rough
Se pte m be r 30, 19 9 7. Th e 15 paym e nts , total   ing $110,660, s h oul d h ave be e n
de pos ite d into de dicate d accounts .

Subs e q ue nt to our fie l d w ork , D CFS re ve rs e d its pos ition and ope ne d a de dicate d
account w ith a com m e rcialbank . D CFS s uppl         ie d SSA w ith th e inform ation ne e de d
to de pos it large re troactive paym e nts to th at account. D CFS al        s o agre e d to
de pos it into th e de dicate d account th e 15 paym e nts w h ich w e ide ntifie d during
our fie l d w ork . Th e re fore , w e are not m ak ing a re com m e ndation conce rning th is
is s ue .
Page 6 - K e nne th S. A pfe l

Re troactive Re im burs e m e nt for Fos te r Care Cos ts

D CFS’m e th od of re ce iving re im burs e m e nt as Re p Paye e for prior fos te r care cos ts
from paym e nts of re troactive be ne fits did not com pl     y w ith SSA pol    icy. As
pre vious l
          y de s cribe d, D CFS autom atical   l
                                               y re im burs e d its e l
                                                                      f re troactive l
                                                                                     y for fos te r
care cos ts th rough th e CW T s y s te m . H ow e ve r, D CFS did not obtain prior
auth orization from SSA for th e re im burs e m e nts as re q uire d.

CO NCLUSIO NS A ND RECO M M END A TIO NS

D CFS h ad im pl e m e nte d ade q uate proce dure s and control  s to account for Social
Se curity paym e nts re ce ive d and disburs e m e nts m ade on be h al   f of ch ildre n in its
care . H ow e ve r, w e note d tw o is s ue s invol
                                                  ving noncom pl   iance w ith l   aw s and
re gulations . Firs t, D CFS did not cre dit th e ch il
                                                      dre n w ith inte re s t e arne d on th e ir
funds . Se cond, D CFS us e d SSIbe ne fits to re im burs e its e l f re troactive l y for fos te r
care cos ts w ith out obtaining prior approvalfrom SSA .

W e re com m e nd th at SSA :

1. 	 D ire ct D CFS to cre dit inte re s t e arne d ($72,000 for th e 12-m onth pe riod e nde d
     Augus t 19 9 7)on ch il  dre n’ s SocialSe curity be ne fits to th os e ch il
                                                                                 dre n’
                                                                                      s
     accounts .

2. D ire ct D CFS to com pl
                          y w ith th e policy re q uire m e nt for Re p Paye e s to obtain
   auth orization from SSA be fore re ce iving re troactive re im burs e m e nt for fos te r
   care cos ts .

AGENCY CO M M ENTS

SSA agre e d w ith our re com m e ndations . H ow e ve r, it e xpre s s e d conce rn about th e
accuracy of th e m e th od w e us e d to calcul ate th e am ount of inte re s t th at s h ould be
cre dite d to th e ch il    s accounts . Th e re fore , SSA s tate d th at it w il
                       dre n’                                                    lde te rm ine a
m ore appropriate m e th od be fore advis ing D CFS on th e dis tribution of th e inte re s t.
(Se e A ppe ndix A for th e fullte xt of SSA ’ s com m e nts .)

O IG RESPO NSE

W e agre e . Be fore D CFS can cre dit inte re s t to th e ch il     dre n’
                                                                          s funds , a m ore
accurate m e th od to cal     culate th at inte re s t is ne e de d. O ur calcul
                                                                               ation w as s im pl
                                                                                                y
an e s tim ate to illus trate th e am ount of inte re s t e arne d during a 1-ye ar pe riod.
Th e re fore , w e ch os e th e e xpe die nt m e th od of us ing m onth l  y bal
                                                                               ance s in th e
colle ctive account.
Page 7 - K e nne th S. A pfe l

A m ore appropriate m e th od is for D CFS to bas e its cal  cul
                                                               ations on actualdail y
balance s in e ach ch ild’                                                 s
                          s account and th e rate s e arne d on th e County’
inve s tm e nts . Such a cal
                           culation w oul
                                        d provide th e actualam ount of inte re s t th e
County e arne d on th e ch ildre n’
                                  s m one y.




                                                 D avid C. W il
                                                              liam s
A PPEND ICES

                    A PPEND IX A


SSA ’
    S CO M M ENTS
                                                                                   A PPEND IX B

  M A JO R CO NTRIBUTO RS TO TH IS REPO RT


O ffice of th e Ins pe ctor Ge ne ral

F. W illiam Fe rnande z, D ire ctor
Jack H . Trude l , D e puty D ire ctor
Jim m ie R. H arris , Acting D e puty D ire ctor
Jos e ph J. Bre w s te r, Se nior Auditor
M . Le igh A ndre w s , Auditor


For additionalcopie s of th is re port, pl   e as e contact th e O ffice of th e Ins pe ctor
Ge ne ral s Publ
          ’     ic A ffairs Spe cialis t at (410)9 66-9 135. Re fe r to Com m on
Ide ntification Num be r A -09 -9 6-51002.
                              A PPEND IX C


SSA O RGA NIZ A TIO NA LCH ART

